BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.

Records

JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of
Church-State Scholars as Amici Curiae in Support of
Respondents in 19-431, Little Sisters of the Poor Saints
Peter and Paul Home v. Pennsylvania, et al., and 19454, Donald J. Trump, President of the United States,
et al. v. Pennsylvania, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 8th day of April, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Little Sisters of the Poor Saints Peter
and Paul Home
Noel Francisco
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Donald J. Trump, President of the
United States, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

Counsel for Commonwealth of Pennsylvania, et al.
JOSHUA MATZ

Counsel of Record

MATTHEW J. CRAIG
DAVID SHIEH

TALIA NISSIMYAN
KAPLAN HECKER & FINK LLP

350 Fifth Avenue, Suite 7110
New York, NY 10118
(212) 763-0883
jmatz@kaplanhecker.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 8, 2020.

Wo

N

Donna J .
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Qr'/lbuJ

le , cXJ i5D
r

d»h.-~.~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

